        OFFICE OF JUSTICE PROGRAMS
   NATIONAL INSTITUTE OF JUSTICE GRANTS
                AWARDED TO
RESEARCH TRIANGLE INSTITUTE INTERNATIONAL
 RESEARCH TRIANGLE PARK, NORTH CAROLINA


         U.S. Department of Justice
       Office of the Inspector General
                Audit Division


         Audit Report GR-40-10-002
                January 2010
            OFFICE OF JUSTICE PROGRAMS
        NATIONAL INSTITUTE OF JUSTICE GRANTS
                    AWARDED TO
     RESEARCH TRIANGLE INSTITUTE INTERNATIONAL
      RESEARCH TRIANGLE PARK, NORTH CAROLINA


                           EXECUTIVE SUMMARY

       The Office of the Inspector General, Audit Division, has completed an
audit of Grant Numbers 2003-RE-CX-K101 and 2004-RE-CX-0002 awarded
by the Office of Justice Programs (OJP), National Institute of Justice (NIJ), to
Research Triangle Institute International (RTI International). RTI
International provides research and technical expertise to governments and
businesses in the areas of economic and social policy, energy, and the
environment. The purpose of the grants was to design and perform a multi-
site evaluation (the project) of the Serious and Violent Offender Reentry
Initiative (SVORI).

      The SVORI evaluation consisted of two phases. For the first phase,
which began in May 2003, OJP awarded $1,872,232, under Grant Number
2003-RE-CX-K101 to conduct a 1-year implementation assessment and
design. For the second phase, which began in September 2004, OJP
awarded $10,127,061, under Grant Number 2004-RE-CX-0002 to conduct a
4-year impact assessment that compared offenders who did and did not
receive reentry services in 14 selected sites. The second phase of the
project also included an analysis of the costs and benefits of operating a
reentry program and a report on the success of the SVORI program.

      The purpose of this audit was to determine whether reimbursements
claimed for costs incurred under the grants were allowable, supported, and
in accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants; and the grantee accomplished the goals outlined in
the grant applications. We tested compliance with essential grant conditions
pertaining to drawdowns, budget management and control, expenditures,
reporting, sub-contractor monitoring, and accomplishments.

      We examined the RTI International’s accounting records, financial and
progress reports, operating policies and procedures and assessed its
progress at meeting the objectives of the grants and found that RTI
International:



                                       ii
  •   transferred $529,658 between approved budget categories without
      advance written approval from OJP;

  •   did not adequately monitor its sub-grantee; and

  •   submitted late to the NIJ its draft reports on the evaluation of the
      SVORI.

     These concerns are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix I.




                                       ii
